SO “Z6.CU
'

No.

3n Wc\z
Supreme (Eflart of tlje United States
♦
LYNN SMITH, et al.
l-

Petitioner
v.

:-s

/ l- ; !

.
l

fiUl-

i:k

n
f

; ,.:Ti hnu y Wti y u u £; U l^3

OFFICE OF THE ATTORNEY GENERAL OF NEW JERSEY, et. al.
Respondents

On Petition For Writ of Certiorari
To the United States Court of Appeals for the Third Circuit

PETITIONER FOR WRIT OF CERTIORARI

♦
Lynn Smith & Brian Smith
Pro se
294A Malvern Court East
Lakewood, New Jersey 08701
(732) 363-4451
appealscourt@optonline.net

\ •

FILED
JUL 12 2020

1

QUESTIONS PRESENTED
The Questions Presented that immediately follow provide the U.S. Supreme
Court with an opportunity to zero-in on current abuses in our state and federal court
system.
Question 1: When a Bankruptcy Debtor files a formal objection to the amount
of a Creditor’s claim and requests that the Creditor provide the
Additional Documents that the Debtor believes would conclusively
demonstrate that the size of the Creditor’s claim needs to be
significantly reduced, can the Creditor refuse to provide the
Additional Documents claiming that the Rooker-Feldman Doctrine
precludes a Debtor from receiving such documents.
Question 2: When a Bankruptcy Debtor files a formal objection to the amount
of a Creditor’s claim and requests that the Creditor provide the
Additional Documents that the Debtor believes would conclusively
demonstrate that the size of the Creditor’s claim needs to be
significantly reduced, can the Bankruptcy judge deny the
Additional Documents claiming that the Rooker-Feldman Doctrine
precludes a Debtor from receiving such documents.
Question 3: When a Bankruptcy Debtor files a formal objection to the amount
of a Creditor’s claim and requests that the Creditor provide the
Additional Documents that the Debtor believes would conclusively
demonstrate that the size of the Creditor’s claim needs to be
significantly reduced, can the Bankruptcy Trustee deny the
Additional Documents claiming that the Rooker-Feldman Doctrine
precludes a Debtor from receiving such documents.
PARTIES TO THE PROCEEDING
The parties in this proceeding are Lynn Smith, et. al., Petitioner and Andrea
Dobin, et al., Respondent.
RULE 29.6 STATEMENT
None of the petitioners is a nongovernmental corporation. None of the
petitioners has a parent corporation or shares held by a publicly traded company.

11.

TABLE OF AUTHORITIES
Cases
Crowe v. DeGioia,
90 N.J. 126(1982)
Revel AC, Inc., et al., Debtors. Idea
Boardwalk, LLC
Philadelphia Entertainment & Development
Parties, LP, Case No. 17-1954
(3dCir. Jan. 11,2018)
j
Statutes and Constitutional Provisions
Amendment IV
Amendment V
Amendment VIII
Amendment XIV
Other Authorities
The Rooker-Feldman Doctrine

!

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..........................
PARTIES TO THE PROCEEDING.............
RULE 29.6 STATEMENT..............................
TABLE OF AUTHORITIES..........................
TABLE OF CONTENTS...............................
OPINIONS BELOW.......................................
JURISDICTION..............................................
STATUATORY PROVISIONS INVOLVED

STATEMENT OF THE CASE.................
REASONS FOR GRANTING THE WRIT...

1
1
l
li

in

1
1
1
3
6

THIS COURT SHOULD GRANT REVIEW OF THE APPELLATE COURT DECISION THAT
WAS INCONSISTENT WITH THE SUPREME COURT PRECEDENTS THAT ADVISE LOWER
FEDERAL COURTS FROM OVEREXTENDING THE APPLICATION OF THE ROOKERFELDMAN DOCTRINE IN CASES LIKE THIS WHERE DEBTORS HAVE NO INTENT TO
OVERTURN STATE COURT FINAL JUDGMENTS BUT MERELY SEEK TO BE PROTECTED
FROM EXCESSIVE CREDITOR CLAIMS THAT THE REQUESTED ADDITIONAL
DOCUMENTS WOULD DEMONSTRATE NEED TO BE REDUCED IN DOLLAR
PARTICULARLY SINCE THE DEBTOR REQUESTS THROUGH A FORMAL OBJECTION OF
THE CREDITOR CLAIM BY MOTION TO THE COURT.
A. This Court Should Grant Certiorari To Resolve The Above Conflict Which Denied the Debtor
the Opportunity to Reduce a False Creditor Claim that Justice Demands Should be
Significantly Reduced to Enable the Debtor to Proceed in Bankruptcy Court in Either Chapter
11 or Chapter 13, Rather than Chapter 7. The Petitioner Requests That This Court Also Note
That The Treatment the Debtor Received in this Case is How Pro Se Litigants in Foreclosure
Courts Seeking to Reduce Excessive Creditor Claims Routinely Conflicts With the
Congressional Intent, Supreme Court Procedures, Rules, and Precedents That Protect the
Overextension, the Misapplication of the Rooker-Feldman Doctrine.
B. This Court Should Grant Certiorari To Resolve The Abusive Conflict Between The
Misapplication By The Superior, Appellate And Supreme Courts of New Jersey of case
precedents such as Crowe v. DeGioia, 90 N.J. 126 (1982) That In Certain Instances Can Deny
The Civil, Due Process and Property Rights Of Foreclosure Defendants And Consider Making
A Precedential Ruling To Protect Otherwise Viable Classes of Pro se Foreclosure Litigants
That Are Currently Suffering From Ill-considered Rulings In State Courts,
Misapplication of Federal Court Cases Such As Revel AC, Inc., et al, Debtor And The
Rooker-Feldman Doctrine In The Third Circuit Carry Over The Abuse And Denial of Civil, Due
Process and Property Rights From The State To The Courts In A Self-Reinforcing Conundrum
That Enables State Court Negligence and Misconduct to Be Reaffirmed By Judges and
Trustee’s Unwilling to Put in the Work to Protect the Pro Se Litigants That Trust them to
Protect Their Rights and Equity.
CONCLUSION

7

IV.

Page
APPENDIX
3rd Circuit Appellant Brief of Lynn Smith

App. 1

February 13, 2020 Denial of a Petition for Rehearing

App. 2

December 17, 2020 Dismissal of Appeal

App. 3

1
Lynn Smith respectfully petitions for a writ of certiorari to review the judgment
of the New Jersey Supreme Court.

♦
OPINIONS BELOW
There were a December 17, 2020 Dismissal of Appeal which contained the opinion
that the Court of Appeals had no jurisdiction over a bankruptcy order that directly
resulted in the sale of my home. The Third Circuit a year prior ruled in this matter that
orders that resulted in the sale of property are considered “final orders”. In this case, they
argued the opposite. The relevant order can be found in Appendix 3.

♦
JURISDICTION
This Court has jurisdiction over federal cases under 28 U.S. Code § 1254(1).

♦
CONSTITUTIONAL PROVISIONS
AMENDMENT IV.
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or things to be seized. The Supreme
Court centered its judgment on May 8, 2013 with an amendment dated May 30, 2013. The
jurisdiction of this Court is invoked under 28 U.S.C. § 1257.
AMENDMENT V.
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public danger;
nor shall any person be subject for the same offence to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall private property
be taken for public use, without just compensation.

2

AMENDMENT VIII.
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.
AMENDMENT XIV.
SECTION. 1. All persons born or naturalized in the United States and subject to
the jurisdiction thereof are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law, which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

3

STATEMENT OF THE CASE
The 3rd Circuit Appellant Brief of Lynn Smith contains all the lower court
filings that prove that the trustee and the judge overextended the Rooker-Feldman
Doctrine prior to my eviction from my home and prior to the sale of my home in an
auction my husband claims the trustee called to a third party: A Zip Code Auction.
In Bankruptcy Court, on August 8, 2018 the Debtor Lynn Smith filed a motion
requesting the Additional Documents that Congress intended for Debtor’s to have
after they file formal objections to the size of a Creditor’s claim.
If granted, the motion would prove that the Court erred by converting the
Debtor’s Chapter 13 Petition to Chapter 7 on January 2, 2018.
The motion was opposed by the Office of the Attorney general of the State of
New Jersey, by the panel trustee, and by the presiding judge, all claiming that the
request was barred by the Rooker-Feldman Doctrine.
The 3rd Circuit indicated that I had to wait for a final judgment in the
bankruptcy court per se before filing an appeal like I did. This is wrong. This is a
clear error since before even deciding the motion on October 1st, the trustee and the
judge evicted us from our home.
The overextension of the Rooker-Feldman Doctrine occurred starting a month
prior to our eviction from our home. The trustee and the bankruptcy court judge
should have considered the motion as a request for the State of New Jersey to honor
my request for additional documents. Instead, they falsely claimed that I was
attempting to overturn a final judgment in state court immediately after the motion
was filed on August 8th. We refuted this tactic immediately but were ignored. To
pressure us and destabilize our home life and ability to litigate properly, the trustee
threatened to evict us immediately after the filing of the August 8, 2018 motion.. On
September 13th we were evicted. If the “Emergent Motion” were treated as such and
not scheduled for a hearing almost two months later, the Additional Information
could have been obtained within days or a few weeks of August 8th and we would
never have been evicted, and our home never sold. This eviction and having to tramp
in hotels for several weeks led to my youngest daughter having a permanent
respiratory condition that has subsequently resulted in close to ten (10) emergency
room visits and hospital stays for life-threatening attacks.

4

The Dismissal of my Appeal should be vacated, and this matter referred to
Bankruptcy Court under a new judge and trustee who will not abuse or otherwise
overextend the Rooker - Feldman Doctrine.
The first order of that Court should be to order the Attorney General of the
State of New Jersey to turn over a revised request for Additional Documents, facts,
and evidence. If they refuse, an adversary complaint against the Office of the Attorney
General of the State of New Jersey should be ordered. Since the presiding judge is
now the Chief Judge in Trenton, we would not have a problem if the matter were
remanded to another 3rd Circuit Bankruptcy Court, i.e., Philadelphia.
The co-Plaintiffs in the action would be Lynn Smith and the Office of the United
States Attorney General. The latter would be suing the State of New Jersey for having
fraudulently concealed in federal court that Lynn Smith, Debtor never “unjustly
enrich herself’ from A1 Kryspin’s $800,000 investment in Digital Gas.
The misapplication of the Rooker-Feldman Doctrine and related precedents by
all Third Circuit courts flies in the face of Congressional intent and Supreme Court
precedents. The lower federal court judges and trustees simply ignored their
mandates and responsibilities when handling my Bankruptcy Petition and Appeals
from 2018 to the present
The reason why this occurred to me is simple: with respect to foreclosures and
bankruptcies in Monmouth County Superior Court and New Jersey state and federal
courts, private and official corruption trumps state and federal law.1
In the end, my home should be returned to me with a significant award of cash
for compensatory, general, and punitive damages. The fraudulent concealment
regarding the size of the state’s claim is something that an honest judge and trustee
could determine by ordering the State of New Jersey to comply with our request for a
revised set of Additional Documents containing facts and evidence that supports my
righteous and lawful opposition to their knowingly false claim. With the Third Circuit
ruling in Philadelphia Entertainment & Development Parties, LP, Case No. 17-1954
litigants saw a glimmer of hope for relief by debtor victims of fraudulent claims. The
trustee was rewarded with a favorable ruling.
1 The Presiding Judge and Panel Trustee had conflicts of interest in the matter, but
petition to this Court need not rely on those circumstances, since their overextension
of the Rooker-Feldman Doctrine is obvious from the opposition papers filed against
the motion and subsequent appeals.

5
Unfortunately, when it comes to Debtors, such as Lynn Smith, who presented
unimpeachable evidence that the State of New Jersey filed a false claim in federal
court, justice is denied. In Lynn Smith, Debtor, it started with the August 8, 2018
motion requesting Additional Documents.
What was good for the Trustee Goose in the Philadelphia Entertainment &
Development case was not for Lynn Smith Gander after she filed her August 8, 2018
motion.
What made the above more abhorrent is the alleged victim’s state court
testimony under oath supports Lynn Smith’s opposition to the state’s $809,237 claim
as being excessive, excessive to the point that if the Attorney General of the State of
New Jersey had not lied in federal court, Lynn Smith and her children would be in
her home.
In this case, starting with the bankruptcy judge, federal judges shirked their
responsibility to thoroughly investigate the excessive claim of the State of New Jersey
by permitting them to withhold the Additional Documents.
Since this trustee and judge abuse occurred starting prior to our eviction and
the eventual sale, my empty home needs to be returned to me.2
A new trustee and bankruptcy judge should permit an adversary complaint
against the State of New Jersey if they refuse to turn over the Additional Documents
or refuse to settle the matter.
The State of New Jersey does not want it on the record that they have filed
false documents in federal court since 2011. This fraudulent concealment, when it is
exposed, should result in compensatory, general, and punitive for fraudulently
placing me in Chapter 7. Their actions had the additional effect of denying me the
opportunity to recover anywhere from $25 to $100 million in cash from stolen
investments. - that they also permitted to take place.
Right now, the Third Circuit took advantage of my pro se status to erroneously,
or possibly maliciously, claim that they did not have jurisdiction over my appeal ignoring the clear overextension of the Rooker Feldman Doctrine that occurred.
2 There is a new owner of my house who uses it for weekends over the summer and on certain
holidays. The State of New Jersey should bear the expenses of returning the man’s
investment and placing him in a new seasonal residence.

6
In closing this section, I would like to note the following.
The presiding judge and the trustee in Lynn Smith, misapplied the RookerFeldman Doctrine to avoid assuming their jurisdictional responsibilities. This occurs
in almost every case involving pro se litigants.
In re Revel AC, Inc. (3rd Cir. 2015) and the Rooker-Feldman Doctrine serve
lower federal court judges, crooked banks and lazy or crooked trustees who work hand
in hand with auction participants, such as those that violated federal law in an
auction of our home that occurred in Trenton Bankruptcy Court on July 17, 2018, won
by Eliyahu Haltovsky, a man who came to my porch on August 2017, six months
before I filed my Chapter 13 Petition and claimed that he was the only person
permitted by the Court to by our home. If that was not corruption, I don’t know what
is. It also needs to be investigated within an Adversary Complaint against him.
Not only did the State of New Jersey ignore Congressional intent and the clear
precedents about the overextension of the Rooker-Feldman Doctrine, they
disregarded the fact that my formal objection to their claim and the request for
Additional Documents was the proper way to exercise my right to lower the size of
their clearly overinflated claim against my estate. In short, they have fraudulently
concealed the truth about their claim for the last decade.
REASONS FOR GRANTING OF THE PETITION
The Bankruptcy Court, District Court, and Court of Appeals all erred by either
overextending their application of the Rooker-Feldman Doctrine to deny me the
Additional Documents that Congress intended for Debtors who file formal objections
to the size of Creditor claims to have, or, in the case of the 3rd Circuit USCOA, their
disregarding this took place in the two lower courts.. In the USCOA, they did have
jurisdiction since what was at stake in the motions I appealed from, which were filed
before eviction and sale of my home, should have been investigated properly.
The key mistake of the USCOA was not acting upon the trustee’s and lower
court judge’s denying me the Additional Documents on the basis I was attempting to
overturn a state court final judgment. My August 8th motion and my subsequent Reply
documents clearly show that this was not the case. Their overextension of the RookerFeldman Doctrine prohibited me from getting Additional Documents from the State
of New Jersey that would have permitted me to reduce the size of that claim
significantly from $809,237 and get back to Chapter 11 or Chapter 13.

7

These were not errors. This was an abuse of power against a pro se litigant.
They ignored the intent of Congress and SCOTUS because they believed I would fold
after eviction and not be able to mount an effective response to their misconduct and
unlawful ruling against me.
Strange, since, in July and August 2018 rulings, the Third Circuit defined a
‘final judgment” for the purpose of having jurisdiction to appeal, as the imminent
threat of the loss of my home. Yes, the 3rd Circuit definition of what constitutes “Final
Judgment” in an appeal of a denied motion that occurred prior to the sale of my home,
was wrong and just one more reason for this court to grant either of the two forms of
relief:
1) Grant this Petition; or
2) Since I am a Pro Se litigant, simply remand the matter back to a new
bankruptcy court judge, trustee and, if necessary, venue within the 3rd
Circuit with the relief I have asked for.
The latter is fine with me. I seek results, not press coverage.
Further, not to insult the judges of this Court, granting this Writ might
encourage too many pro se litigants to file for relief in this Court.
We can’t have that.
CONCLUSION
This petition should be granted for all the above reasons, attached evidence
and prior filings.
The primary intent of this petition brief was to more accurately and roundly
present to this Court a serious problem that may not be unique to the State of New
Jersey with respect to Pro se litigants forced into bankruptcy court. What goes on is
largely a rape of innocent lower-and middle-class families struggling to make a proper
homestead for their children and simply survive our increasingly complicated modern
life increasingly typified by a myriad of ways and means to extract cash from them.
There is a swamp in New Jersey.
Godspeed!
Please grant my petition.

8

If the Court sees the error or abuse from the trustee and judge overextending
the Rooker-Feldman Doctrine, feel free to convert it to a Writ of Mandamus or ask me
to file one which will outline this Petition and request an immediate order of this
Court.
If Certiorari is granted, I will poach my pension funds and retain a law firm.
A District Court concealed a Reconsideration Motion for 90-days because it
contained information that would have exposed the trustee and judges for their
misconduct and abuse toward me. They said it was never filed even though I have the
receipt that they signed for it.
The result of this is a waste of 30-days of my time that delayed the writing of
this petition, and denied me the opportunity for my husband to attempt to obtain legal
advice on a one-day basis or even retention - something also made difficult by the
recent upsurge in COVID-19 cases. I may file a motion asking this Court to permit
me to file an Amended Writ or an Addendum to this Writ.
Thanks for your patience.
Respectfully submitted.

